APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the United States Court of Appeals for
the Ninth Circuit (October 25, 2019) ................. 1a
Order of the United States District Court for the
District of Arizona (March 8, 2019) ................... 3a
Judgment in a Civil Case (March 8, 2019) ........ 9a
Report and Recommendation of the United States
District Court for the District of Arizona
(September 18, 2018)........................................ 11a
REHEARING ORDER
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Reconsideration (December 20, 2019) ............. 21a

App.1a
ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
(OCTOBER 25, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
BRADLEY WILLIAM KENNEDY, ADC #211800,

Petitioner-Appellant,
v.
GERALD THOMPSON, Warden, Warden
(ASPC-Eyman Complex); ATTORNEY GENERAL
FOR THE STATE OF ARIZONA; CHARLES L. RYAN,

Defendants-Appellees.
________________________
No. 19-15480
D.C. No. 2:17-cv-04300-GMS
District of Arizona, Phoenix
Before: O’SCANNLAIN and RAWLINSON,
Circuit Judges.
The request for a certificate of appealability is
denied because appellant has not shown that “jurists
of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable
whether the district court was correct in its procedural
ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000);

App.2a

see also 28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565
U.S. 134, 140-41 (2012).
Any pending motions are denied as moot.
DENIED.

App.3a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF ARIZONA
(MARCH 8, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
BRADLEY WILLIAM KENNEDY,

Petitioner,
v.
GERALD THOMPSON, ET AL.,

Respondents.
________________________
No. CV-17-04300-PHX-GMS
Before: G. Murray SNOW,
Chief United States District Judge.
Pending before the court is Petitioner Bradley
William Kennedy’s Amended Petition for a Writ of
Habeas Corpus. (Doc. 6). Magistrate Judge Eileen S.
Willett’s Report and Recommendation (“R&R”), (Doc.
14), recommends that Kennedy’s petition be dismissed
and that no certificate of appealability be granted.
Kennedy timely filed Objections. (Doc. 15). The Attorney
General of the State of Arizona filed a Response to
the Objections. (Doc. 16). Kennedy’s Petition is untimely
and is therefore dismissed with prejudice.

App.4a
BACKGROUND
Because no party has objected to the factual and
procedural background as set forth in the R&R, the
Court adopts the background as an accurate account.
DISCUSSION
In his petition, Kennedy asserts several grounds
for habeas relief. (Doc. 1). However, the initial inquiry
is whether Kennedy’s petition is timely under the AntiTerrorism and Effective Death Penalty Act (“AEDPA”).
The R&R correctly concludes that Kennedy’s petition
is untimely and should therefore be dismissed with
prejudice.
I.

Legal Standards

This court “may accept, reject, or modify, in whole
or in part, the findings or recommendations made by
the magistrate judge.” 28 U.S.C. § 636(b)(1). “[T]he
district judge must review the magistrate judge’s
findings and recommendations de novo if objection is
made, but not otherwise. United States v. Reyna Tapia, 328 F.3d 1114, 1121 (9th Cir. 2003) (en banc)
(emphasis in original). District courts are not required
to conduct “any review at all . . . of any issue that is
not the subject of an objection.” Thomas v. Arn, 474
U.S. 140, 149 (1985).
II.

Analysis

AEPDA established a strict statute of limitations
for the filing of federal habeas petitions. Such a
petition must be filed within one year of the latest of
four circumstances. See 28 U.S.C. § 2244(d)(1). The
relevant period for this case is “the date on which the
judgment became final by the conclusion of direct

App.5a
review or the expiration of the time for seeking such
review.” Id. (d)(1)(a). The one-year period, however,
is often subject to tolling. AEDPA tolls the limitations
period during the “time during which a properly filed
application for State post-conviction relief or other
collateral review with respect to the pertinent judgment
or claim is pending.” 28 U.S.C. § 2244(d)(2). AEDPA’s
statute of limitations is also subject to equitable
tolling. Holland v. Florida, 560 U.S. 631, 645 (2010).
But equitable tolling is not frequently available. To
qualify, a petitioner must establish that (1) he has been
pursuing his rights diligently and (2) extraordinary
circumstances prevented him from filing their habeas
petition on time. Pace v. DiGuglielmo, 544 U.S. 408,
418 (2005).
The parties do not contest that Kennedy’s limitations period began running on June 6, 2013. Kennedy,
however, contends that his limitations period should
be equitably tolled. Because he fails to demonstrate
that extraordinary circumstances prevented him from
filing his petition before the expiration of AEDPA’s
limitations period, his petition is untimely and should
be dismissed with prejudice.
A. Equitable Tolling
Kennedy objects to the R&R’s conclusion that
equitable tolling does not apply. Kennedy contends
that it should apply such that the limitations period
did not end until February 15, 2017. Kennedy bears
the burden of establishing that equitable tolling is
warranted. Pace, 544 U.S. at 418; Rasberry v. Garcia,
448 F.3d 1150, 1153 (9th Cir. 2006).
To establish that equitable tolling applies, Kennedy
must demonstrate that extraordinary circumstances

App.6a
were the proximate cause of his untimeliness. Spitsyn v.
Moore, 345 F.3d 796, 799 (9th Cir. 2003). In his objections to the R&R, Kennedy asserts the “extraordinary
circumstance” of “ineffective assistance of counsel
during his state post-conviction proceeding.” (Doc. 15 at
2). But Kennedy fails to explain why this alleged
ineffectiveness of PCR counsel prevented him from
filing his federal habeas petition within the required
time. He therefore does not “show a causal connection
between the unlawful impediment and his failure to file
a timely habeas petition.” Bryant v. Arizona Attorney
General, 499 F.3d 1056, 1060-61 (9th Cir. 2007).
Further, Martinez v. Ryan, 566 U.S. 1 (2012),
does not apply here. Martinez recognized a narrow
set of circumstances in which the procedural default
of a claim of ineffective assistance of trial counsel can
be excused because of the ineffectiveness of counsel
in PCR proceedings. Cook v. Ryan, 688 F.3d 598, 607
(9th Cir. 2012). See also Davila v. Davis, ___ U.S. ___,
137 S. Ct. 2058, 2062–63 (2017) (stating that Martinez
applies “in a single context—where the State effectively
requires a defendant to bring [an ineffective-assistanceof-trial counsel] claim in state postconviction proceedings rather than on direct appeal.”). But that is not
the situation here. Martinez does not apply to tolling
the limitations of § 2244(d). See Lambrix v. Sec’y,
Florida Dept. of Corr., 756 F.3d 1246, 1249 (11th Cir.
2014) (“the equitable rule in Martinez applies only to
the issue of cause to excuse the procedural default of
an ineffective assistance of trial counsel claim that
occurred in a state collateral proceeding and has no
application to the operation or tolling of the § 2244(d)
state of limitations for filing a § 2254 petition”);
Madueno v. Ryan, No. CV-13-01382-PHX-SRB, 2014

App.7a
WL 2094189, at *7 (D. Ariz. May 20, 2014) (“Martinez
has no application to the statute of limitations in the
AEDPA which governs Petitioner's filing in federal
court.”).
“[T]he threshold necessary to trigger equitable
tolling under AEDPA is very high.” Bills v. Clark, 628
F.3d 1092, 1097 (9th Cir. 2010) (alterations omitted).
Kennedy has failed to establish that extraordinary
circumstances prevented him from timely filing his
habeas petition. Pace, 544 U.S. at 418. He has failed
therefore to demonstrate that the limitations period
in § 2244(d) should be tolled because of equitable
concerns.
B. Actual Innocence
Kennedy objects to the R&R’s observation that
Kennedy “ma[de] no claim that the Court should apply
the “actual innocence gateway” to excuse the timeliness
of this proceeding.” (Doc. 14 at 6). In McQuiggin v. Perkins, the Supreme Court held that an actual innocence
claim may serve as a “gateway” to overcome a statute
of limitations bar to a habeas claim. 569 U.S. 383, 386
(2013). To access this gateway, however, a petitioner
must “persuade[] the district court that, in light of
the new evidence, no juror, acting reasonably, would
have voted to find him guilty beyond a reasonable
doubt.” Id. Kennedy’s petition presents no new evidence
that would prevent a reasonable juror from finding
him guilty beyond a reasonable doubt. Thus, even
assuming that Kennedy did bring an actual innocence
claim in his petition (which is far from clear), the
claim would fail and does not therefore allow Kennedy
to avoid the limitations period of § 2244(d).

App.8a
C. Certificate of Appealability
A certificate of appealability should issue “when
the prisoner shows . . . that jurists of reason would
find it debatable whether the petition states a valid
claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000). Jurists
of reason would not find it debatable whether Kennedy’s
petition states valid claims of the denial of his constitutional rights, nor would they debate whether Kennedy’s
claims were untimely under § 2244(d). If Kennedy
appeals this ruling, the Court declines to issue a
certificate of appealability.
CONCLUSION
IT IS THEREFORE ORDERED that the Report
and Recommendation of Magistrate Judge Willett
(Doc. 14) is adopted.
IT IS FURTHER ORDERED that Petitioner
Bradley William Kennedy’s Amended Petition for a
Writ of Habeas Corpus (Doc. 6) is DENIED and DISMISSED WITH PREJUDICE.
IT IS FURTHER ORDERED directing the Clerk
of Court to terminate this action and enter judgment
accordingly.
Dated this 8th day of March, 2019.
/s/ G. Murray Snow
Chief United States District Judge

App.9a
JUDGMENT IN A CIVIL CASE
(MARCH 8, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
BRADLEY WILLIAM KENNEDY,

Petitioner,
v.
GERALD THOMPSON, ET AL.,

Respondents.
________________________
No. CV-17-04300-PHX-GMS
Decision by Court. This action came for consideration before the Court. The issues have been considered
and a decision has been rendered.
IT IS ORDERED AND ADJUDGED adopting the
Report and Recommendation of the Magistrate Judge
as the order of this Court. Petitioner’s Amended Petition for Writ of Habeas Corpus pursuant to 28 U.S.C.
§ 2254 is denied and this action is hereby dismissed
with prejudice.

App.10a
Brian D. Karth
District Court Executive/
Clerk of Court
March 8, 2019
By

/s/ Michelle Sanders
Deputy Clerk

App.11a
REPORT AND RECOMMENDATION OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
(SEPTEMBER 18, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
BRADLEY WILLIAM KENNEDY,

Petitioner,
v.
CHARLES RYAN, ET AL.,

Respondents.
________________________
No. CV-17-04300-PHX-GMS (ESW)
Before: Eileen S. WILLETT,
United States Magistrate Judge.
TO THE HONORABLE G. MURRAY SNOW, UNITED
STATES DISTRICT JUDGE:
Pending before the Court is Bradley William
Kennedy’s (“Petitioner”) Amended “Petition under
28 U.S.C. § 2254 for a Writ of Habeas Corpus” (the
“Amended Petition”) (Doc. 6). After reviewing the parties’ briefing (Docs. 6, 10, 11, 12), the undersigned finds
that the Petition is time-barred under the one-year
statute of limitations set forth in the Anti-Terrorism

App.12a
and Effective Death Penalty Act of 1996 (“AEDPA”).1
It is therefore recommended that the Amended Petition be denied and dismissed with prejudice.
I.

BACKGROUND

A jury sitting in the Superior Court of Arizona
in and for Maricopa County found Petitioner guilty of
seven counts of sexual exploitation of a minor under
fifteen and one count of forgery. (Doc. 10-16 at 3).
The trial court sentenced Petitioner to a total of 119
years in prison. (Id.).
In its September 30, 2009 decision, the Arizona
Court of Appeals affirmed Petitioner’s convictions
and sentences. (Id. at 2-23). The Arizona Supreme
Court denied review on March 25, 2010. (Doc. 6 at 3).
On November 24, 2009, Petitioner filed a Notice
of Post-Conviction Relief (“PCR”). (Doc. 10-16 at 25).
The trial court appointed Petitioner counsel, who could
not find a colorable claim for relief. (Id. at 29-30, 4142). On June 5, 2013, the trial court dismissed the PCR
proceeding. (Id. at 47-48). Petitioner did not seek
review by the Arizona Court of Appeals. (Doc. 6 at 6).
In January 2010, September 2011, and October
2011, Petitioner filed motions in the trial court
seeking DNA testing of evidence. (Id. at 4-5). The
trial court denied all three motions, and Petitioner
did not seek further review by the Arizona Court of
Appeals. (Id.).
On November 24, 2017, Petitioner initiated this
federal habeas proceeding (Doc. 1). On December 1,
1 The one-year statute of limitations for a state prisoner to file
a federal habeas petition is codified at 28 U.S.C. § 2244(d).

App.13a
2017, Petitioner, through counsel, filed an Amended
Petition (Doc. 6). The Court required Respondents to
answer the Amended Petition. (Doc. 7). As discussed
below, the undersigned finds that Respondents’ Answer
(Doc. 10) correctly asserts that this proceeding should
be dismissed as untimely.
II.

LEGAL STANDARDS

Under AEDPA, a state prisoner must file his or
her federal habeas petition within one year of the
latest of:
1. The date on which the judgment became
final by the conclusion of direct review or
the expiration of the time for seeking such
review;
2. The date on which the impediment to filing
an application created by State action in
violation of the Constitution or laws of the
United States is removed, if the petitioner
was prevented from filing by the State action;
3. The date on which the right asserted was
initially recognized by the United States
Supreme Court, if that right was newly recognized by the Court and made retroactively
applicable to cases on collateral review; or
4. The date on which the factual predicate of
the claim presented could have been discovered through the exercise of due diligence.
28 U.S.C. § 2244(d)(1); see also Hemmerle v. Schriro,
495 F.3d 1069, 1073-74 (9th Cir. 2007). The one-year
limitations period, however, does not necessarily run
for 365 consecutive days as it is subject to tolling.

App.14a
Statutory tolling is available under AEDPA, which
provides that the limitations period is tolled during the
“time during which a properly filed application for
State post-conviction relief or other collateral review
with respect to the pertinent judgment or claim is
pending.” 28 U.S.C. § 2244(d)(2) (emphasis added); Roy
v. Lampert, 465 F.3d 964, 968 (9th Cir. 2006)
(limitations period is tolled while the state prisoner
is exhausting his or her claims in state court and
state post-conviction remedies are pending) (citation
omitted).
AEDPA’s statute of limitations is also subject to
equitable tolling. Holland v. Florida, 560 U.S. 631,
645 (2010) (“Now, like all 11 Courts of Appeals that
have considered the question, we hold that § 2244(d)
is subject to equitable tolling in appropriate cases.”).
Yet equitable tolling is applicable only “if extraordinary
circumstances beyond a prisoner’s control make it
impossible to file a petition on time.” Roy, 465 F.3d
at 969 (citations omitted); Gibbs v. Legrand, 767 F.3d
879, 888 n.8 (9th Cir. 2014). A petitioner must show
(i) that he or she has been pursuing his rights
diligently and (ii) some extraordinary circumstances
stood in his or her way. Pace v. DiGuglielmo, 544 U.S.
408, 418 (2005); see also Waldron-Ramsey v. Pacholke,
556 F.3d 1008, 1011 (9th Cir. 2009); Roy, 465 F.3d at
969.
III. ANALYSIS
A. The Statute of Limitations Commenced on
June 6, 2013
In this case, the relevant triggering event for
purposes of AEDPA’s statute of limitations is the date

App.15a
on which Petitioner’s judgment became “final by the
conclusion of direct review or the expiration of the time
for seeking such review.” 28 U.S.C. § 2244(d)(1)(A).
The Arizona Court of Appeals affirmed Petitioner’s
convictions and sentences on September 30, 2009.
(Doc. 10-16 at 2-23). The Arizona Supreme Court
denied further review on March 25, 2010. (Doc. 6 at 3).
Petitioner had ninety days from March 25, 2010
(until June 23, 2010) to file a petition for a writ of
certiorari in the United States Supreme Court, but
Petitioner did not do so. Sup. Ct. R. 13. Consequently,
Petitioner’s convictions and sentences became final
on June 23, 2010. Bowen v. Roe, 188 F.3d 1157, 1158-59
(9th Cir. 1999) (“[T]he period of ‘direct review’ in 28
U.S.C. § 2244(d)(1)(A) includes the period within which
a petitioner can file a petition for a writ of certiorari
from the United States Supreme Court, whether or
not the petitioner actually files such a petition.”). The
one-year statute of limitations did not begin running
on June 24, 2010, however, as Petitioner filed a PCR
Notice on November 24, 2009.2 (Doc. 10-16 at 25).
On June 5, 2013, the trial court dismissed the
PCR proceeding. (Id. at 47-48). Petitioner did not petition the Arizona Court of Appeals for further review.
AEDPA’s limitations period therefore began running
on June 6, 2013. Accordingly, Petitioner had until
June 5, 2014 to file his federal habeas petition,
rendering this proceeding untimely unless additional
2 In Arizona, a post-conviction relief (“PCR”) proceeding becomes
“pending” as soon as the notice of PCR is filed. Isley v. Ariz.
Dep’t of Corrections, 383 F.3d 1054, 1055-56 (9th Cir. 2004) (“The
language and structure of the Arizona postconviction rules
demonstrate that the proceedings begin with the filing of the
Notice.”).

App.16a
statutory tolling or equitable tolling applies. See
Patterson v. Stewart, 251 F.3d 1243, 1247 (9th Cir.
2001) (“Excluding the day on which Patterson’s petition
was denied by the Supreme Court, as required by
Rule 6(a)’s ‘anniversary method,’ the one-year grace
period began to run on June 20, 1997 and expired
one year later, on June 19, 1998 . . . .”).
B. Statutory Tolling
A statutory tolling analysis under AEDPA begins
by determining whether the collateral review petition
was “properly filed.” This is because statutory tolling
does not apply to collateral review petitions that are
not “properly filed.” Pace v. DiGuiglielmo, 544 U.S.
408 (2005); 28 U.S.C. § 2244(d)(2).
After the June 2013 dismissal of Petitioner’s PCR
proceeding, Petitioner filed three motions for DNA
testing pursuant to Ariz. Rev. Stat. § 13-4240. (Doc. 6
at 4-5). Those motions do not have any statutory
tolling effect because a petition for DNA testing
pursuant to Ariz. Rev. Stat. § 13-4240 “differs from a
petition for postconviction relief under Rule 32 and
its statutory counterparts.” State v. Gutierrez, 278 P
.3d 1276, 1280 (Ariz. 2012); see also Sakellaridis v.
Warden, Corcoran State Prison, No. EDCV 12-00464
ODW AN, 2012 WL 2374562, at *5 (C.D. Cal. June 22,
2012) (“[W]hile Petitioner presumably sought DNA
testing so he could then challenge his underlying
conviction, his attempts to secure a DNA test were
not themselves ‘properly filed application[s] for State
post-conviction or other collateral review with respect
to the pertinent judgment or claim.’”) (emphasis in
original) (citing 28 U.S.C. § 2244(d)(2)); Hodge v.
Greiner, 269 F.3d 104, 107 (2d Cir. 2001) (holding that

App.17a
a state court proceeding where petitioner sought
material to develop a challenge to his conviction did not
statutorily toll limitations period, noting that “if a
filing of that sort could toll the AEDPA limitations
period, prisoners could substantially extend the time
for filing federal habeas petitions by pursuing in
state courts a variety of applications that do not
challenge the validity of their convictions”).
C. Equitable Tolling Does Not Apply
It is a petitioner’s burden to establish that
equitable tolling is warranted. Pace, 544 U.S. at 418;
Rasberry v. Garcia, 448 F.3d 1150, 1153 (9th Cir. 2006)
(“Our precedent permits equitable tolling of the oneyear statute of limitations on habeas petitions, but the
petitioner bears the burden of showing that equitable
tolling is appropriate.”). As mentioned, a petitioner
seeking equitable tolling must establish that: (i) he
or she has been pursuing his or her rights diligently
and (ii) that some extraordinary circumstances stood
in his or her way. A petitioner must also show that
the “extraordinary circumstances” were the “but-for
and proximate cause of his [or her] untimeliness.”
Allen v. Lewis, 255 F.3d 798, 800 (9th Cir. 2001) (per
curiam); see also Ramirez v. Yates, 571 F.3d 993, 997
(9th Cir. 2009). A petitioner’s pro se status, on its own,
is not enough to warrant equitable tolling. See, e.g.,
Johnson v. United States, 544 U.S. 295, 311 (2005)
(“[W]e have never accepted pro se representation
alone or procedural ignorance as an excuse for prolonged inattention when a statute’s clear policy calls
for promptness.”).
Petitioner asserts that he is entitled to equitable
tolling. (Doc. 6 at 19; Doc. 11 at 3). Petitioner contends

App.18a
that the “outrageous violation of due process in [his]
case demands equitable intervention from this Court
to correct the injustices that resulted.” (Doc. 11 at 3).
Petitioner further asserts that he
diligently pursue[d] his claims by filing pro
se motions in the state courts attempting to
preserve his rights. As a result, [Petitioner’s]
is one of the exception circumstances that
requires equitable tolling for the entire time
period in which [Petitioner] was attempting
to pursue and exhaust his post-conviction
remedies in state court on his own behalf
from June 5, 2013 through February 15, 2017.
(Id.). Yet the record reflects that Petitioner filed only
one PCR proceeding under Arizona Rule of Criminal
Procedure 32, which was dismissed in June 2013.
Petitioner’s subsequent motions for DNA testing
pursuant to Ariz. Rev. Stat. § 13-4240 do not establish
that extraordinary circumstances made it impossible for
him to file a timely federal habeas petition. Further,
alleged ignorance of the statute of limitations or “lack
of legal sophistication is not, by itself, an extraordinary
circumstance warranting equitable tolling.” Rasberry,
448 F.3d at 1154. The undersigned does not find that
equitable tolling applies.
Finally, Petitioner makes no claim that the Court
should apply the “actual innocence gateway” to excuse
the untimeliness of this proceeding.3 The undersigned
3 In McQuiggin v. Perkins, 133 S.Ct. 1924, 1931-34 (2013), the
Supreme Court announced an equitable exception to AEDPA’s
statute of limitations. The Court held that the “actual innocence
gateway” to federal habeas review that was applied to procedural
bars in Schlup v. Delo, 513 U.S. 298, 327 (1995) and House v.
Bell, 547 U.S. 518 (2006) extends to petitions that are time-barred

App.19a
recommends that the untimely Amended Petition
(Doc. 6) be dismissed with prejudice.
IV. CONCLUSION
Based on the foregoing,
IT IS RECOMMENDED that the Amended Petition (Doc. 6) be DENIED and DISMISSED WITH
PREJUDICE.
IT IS FURTHER RECOMMENDED that a
certificate of appealability and leave to proceed in
forma pauperis on appeal be denied because dismissal
of the Amended Petition is justified by a plain
procedural bar.
This recommendation is not an order that is
immediately appealable to the Ninth Circuit Court of
Appeals. Any notice of appeal pursuant to Fed. R. App.
P. 4(a)(1) should not be filed until entry of the
District Court’s judgment. The parties shall have
fourteen days from the date of service of a copy of
this recommendation within which to file specific
written objections with the Court. See 28 U.S.C. § 636
(b)(1); Fed. R. Civ. P. 6, 72. Thereafter, the parties have
fourteen days within which to file a response to the
objections. Failure to file timely objections to the Magistrate Judge’s Report and Recommendation may result
under AEDPA. “To be credible, [an actual innocence gateway] claim
requires petitioner to support his allegations of constitutional
error with new reliable evidence–whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical
physical evidence.” Schlup, 513 U.S. at 324. Because of “the
rarity of such evidence, in virtually every case, the allegation of
actual innocence has been summarily rejected.” Shumway v.
Payne, 223 F.3d 982, 990 (9th Cir. 2000) (quoting Calderon v.
Thomas, 523 U.S. 538, 559 (1998)).

App.20a
in the acceptance of the Report and Recommendation
by the District Court without further review. See
United States v. Reyna-Tapia, 328 F.3d 1114, 1121
(9th Cir. 2003). Failure to file timely objections to
any factual determinations of the Magistrate Judge
may be considered a waiver of a party’s right to
appellate review of the findings of fact in an order or
judgment entered pursuant to the Magistrate Judge’s
recommendation. See Fed. R. Civ. P. 72.
Dated this 18th day of September, 2018.

Eileen S. Willett
United States Magistrate Judge

App.21a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR RECONSIDERATION
(DECEMBER 20, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
BRADLEY WILLIAM KENNEDY, ADC #211800,

Petitioner-Appellant,
v.
GERALD THOMPSON, Warden,
Warden (ASPC-Eyman Complex);
ATTORNEY GENERAL FOR THE STATE OF
ARIZONA; CHARLES L. RYAN,

Defendants-Appellees.
________________________
No. 19-15480
D.C. No. 2:17-cv-04300-GMS
District of Arizona, Phoenix
Before: TALLMAN and NGUYEN,
Circuit Judges.
Appellant has filed a combined motion for reconsideration and motion for reconsideration en banc (Docket
Entry No. 3).
The motion for reconsideration is denied and the
motion for reconsideration en banc is denied on behalf

App.22a
of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord.
6.11.
No further filings will be entertained in this closed
case.

